IN THE
SUPREME COURT OF THE UNITED STATES

•v ,

James Earvin Sanders
(Petitioner)
v.

No. 20-5111

Lorie Davis, Director, Texas Department
of Criminal Justice, Correctional
Institutions Division
(Respondent)

SUPPLEMENTAL BRIEF
TO PETITION FOR WRIT OF CERTIORARI TO
THE UNITED STATES COURT OF APPEALS FOR THE
FIFTH CIRCUIT

Pro se Petitioner:
James Earvin Sanders, TDCJ-ID# 1579328
2101 FM 369N
Iowa Park, TX 76367
Allred Unit

received
AUG 1 9 2020

QUESTION PRESENTED
Where trial counsel withheld exculpatory psychiartic mitigating
evidence but lied to defendant during trial by claiming that the
ADA, who admitted the interrogation tape, withheld it from the
defense; only to have appellate counsel refuse to file suppression
of evidence on direct appeal because no objection to such a Brady
violation was made: Does such a failure provide "cause" to default
the State's procedural bar under Martinez, Trevino, and Buck, when
appellate counsel's failure to file on the Brady violation or
ineffective-assistance-of-trial-counsel (for failure to object to
said violation) deprived Petitioner of direct review on an issue
that would have revealed that trial counsel lied about the Brady
violation?

STATEMENT OF THE CASE
This Court in Martinez v. Ryan, 132 S.Ct. 1309 (2012) and
Trevino v. Thaler, 133 S.Ct. 1911 (2013), expanded on the rare
exception in Coleman because cases in Arizona and Texas made it
difficult, if not impossible, for the appellants to properly file
on ineffective-assistance-of-trial-counsel claims on direct review.
Problems such as time restraints in filing notice of appeal and
the need to investigate issues outside of the court record were
deemed as reasons why the ineffective assistance of appellate
counsel on direct review could be "cause" :for procedural default
of the State's procedural bar, allowing the appeal to be reviewed
on its merits.
In Trevino, the narrow exception in Coleman was broadened to
Texas cases specifically because although,technically, one could
file IATC on direct appeal in Texasm the restraints mentioned above
made doing so difficult.
The Petitioners case, like Trevino, originates in Texas. And
like that case, the lack of an adequate direct appeal deprived
the Petitioner of an opportunity to expand the record and receive
a ruling from the court that could assist him in pursuing his IATC
ground on collateral review.
In accordance with the issues described in The History of the
Case (Pettition for Cert, at 5-9), Petitioner requested that appel­
lant counsel file a ground on suppression of evidence based on
trial counsel's assertion that the ADA withheld the interrogation
tape. Appellate counsel, J. Stanley Goodwin, said he could not file
a Brady violation because trial counsel did not object to such, and
therefore it was not on the trial record. He further explained that
1

could only be filed on errors and mistakes and objections that
were clearly on the record. Thus, he filed the direct appeal on
three issues that were quickly shot down.
Years later, when the Petitioner finally received his discovery
and filed his 11.07, and Ground Three cited the ADA's failure to
disclose exculpatory evidence. In the State's Findings of Fact,
they cited trial counsel Zellmer's sworn affidavit in which he
now claimed to not know why the Petitioner was alleging suppression
when he had had the tape the entire time. (See State's Answer to
Applicant's 11.07, Exhibit B at 2of6.)

Why is this in line with Trevino?
Had appellate counsel filed on the Brady violation, as requested,
or filed on ineffective-assistance-of-trial-counsel (IATC), then
a cursory investigation would have revealed that trial counsel had
lied and once the DA's office proved that they had provided him
with the tape and other mitigating psychiatric evidence, then the
record would have been further developed and filing on IATC would
have been a foregone conclusion. A ruling on such would have re­
sulted, and if denied, the Petitioner would have had both a brief
from appellate counsel and an order from direct review that addressed
pertinent issues.
Is this not precisely why the Court expanded its narrow exception
in Coleman, and then Martinez?
Because, in this situation, Petitioner did not find out that
trial counsel had lied about everything until the 11.07 had been
filed and the State had issued its response. By then the ground
had already be presented and reviewed, so adding an ineffectiveassistance-of-appellate-counsel was not possible and unwarranted.
2

Ineffeetive-Assistance-of-Appellate-Counsel
When all of this occurred in 2008, the actions of appellate
counsel were based on common practice appellate law in Texas.
This is the very reason the ruling in Trevino exists. That said,
the Petitioner did not actually file a ground on IAAC because
at the time

his assistance was not deemed ineffective by law,

and the 11.07 grounds were already filed and answered.
Nonetheless, the Court of Criminal Appeals of Texas only
issued a white card denial without any type of written order. So
at this stage of the appellate procedding, Petitioner has yet to
receive a ruling on the merits of this appeal due to the proce­
dural time bar administered under 28 U.S.C. §2244(d)(l).
Yet had counsel on direct appeal looked into the alleged Brady
violation, and filed on it or the IATC that failed to object to
it, then Petitioner would have had an opportunity to broaden the
record on appeal, and receive an order addressing the issues
along with a copy of his appellate attorney's brief to work his
collateral-review attack off of.
Again: Isn't this the Court's very reasoning for its decision
in Trevino?
Does not an appellant deserve a ruling on the merits of his
claims at some point in the proceeding? The First Amendment is
said to entitle everyone to a right to redress of grievances, does
it not?
The "cause" in Trevino was clearly explained as reason to
default on the State's procedural bar, not cause to overturn and
remand. At this point, Petitioner seeks to simply defeat the pro­
cedural bar so the merits of the case can be addressed.
Trevino and Martinez were recently brought to the Petitioner's
3

attention by another inmate. Petitioner has tried to order Buck v.
Davis, 137 S.Ct. 173,(2017), which supposedly is in-line with
Trevino, but the Allred Unit Law Library has yet to send the case
law. (See attachments A &\B.) Nonetheless, this case was under
review in 2017, yet neither the district court, nor the Fifth
Circuit has applied either of these cases to this case, even though
Trevino, and the rulings therein seem to fit it perfectly.
Based on Trevino, is there "cause" to default the procedural
time bar by the State so that this case can be reviewed on its
merits?
,CONCLUSION
Petitioner prays that the Court will grant certiorari based on
its ruling in Trevino, which appears to fit perfectly with the
reasoning behind Trevino. Petitioner is NOT asking for oral argu­
ment, as he is a pro se petitioner, and has no one .to come argue
his case for him. He would simply like certiorari to be granted
so the court can decide if Trevino, and possibly Buck should have
been applied to his case.
SIGNED this 9th day of August, 2020.
Respectfully submitted,

£arVLtf Sa-nJUD
James Earvin Sanders
Ij James Earvin Sanders, the Petitioner, do hereby declare
under penalty of perjury that this Supplemental Brief to my Writ
of Certiorari (Petition) was placed in the Allred Unit mailing
system on Sunday, August 9th of 2020.

4

